HHS/OIG-AUDIT--Medicaid Pharmacy-Actual Acquisition Cost of Generic Prescription Drug Products (A-06-97-00011)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Medicaid Pharmacy - Actual Acquisition Cost of Generic Prescription Drug
Products," (A-06-97-00011)
August 4, 1997
Complete Text of Report is available in PDF format (965 kb).
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
At the request of the Health Care Financing Administration (HCFA), the Office
of Inspector General (OIG) conducted a nationwide review of pharmacy acquisition
cost for generic drugs reimbursed under the Medicaid prescription drug program.
Since most States reimburse pharmacies for Medicaid prescriptions using a formula
which discounts the average wholesale price (AWP), the objective of our review
was to develop a nationwide estimate of the discount below AWP at which pharmacies
purchase generic drugs. Estimates for brand name drugs were also developed and
those results were reported in a separate report.
To accomplish our objective, we selected a random sample of 11 States from a universe
of 48 States and the District of Columbia. Arizona was excluded from the universe
of States because the Medicaid drug program is a demonstration project using prepaid
capitation financing and Tennessee was excluded because of a waiver received to
implement a statewide managed care program for Medicaid. The sample States were
California, Delaware, District of Columbia, Florida, Maryland, Missouri, Montana,
Nebraska, New Jersey, North Carolina, and Virginia. We obtained pricing information
from 314 pharmacies. Specifically, we obtained 9,075 invoice prices for generic
drugs.
We estimated that, on average, actual acquisition cost of generic drugs was 42.5
percent below AWP. Unlike brand name drugs, where reimbursement is predominantly
based on a discounted AWP, reimbursement of generic drugs can be limited by Federal
upper limit amounts that are established by HCFA. Taking the upper limits into
consideration, we calculated a savings of as much as $145.5 million in Calendar
Years (CY) 1994 and 1995 for 200 generic drugs with the greatest amount of Medicaid
reimbursement in each year, if reimbursement had been based on the findings of
this report.
For the 11 States, we selected a sample of Medicaid pharmacy providers and obtained
invoices of their drug purchases. The pharmacies were selected from each of five
categories--rural-chain, rural-independent, urban-chain, urban-independent, and
non-traditional pharmacies (nursing home pharmacies, hospital pharmacies, etc.).
We excluded the non-traditional category from our overall estimates. We believed
such pharmacies purchase drugs at substantially greater discounts than retail pharmacies,
and including them would have inflated our percentages.
We compared each invoice drug price to AWP for that drug and calculated the percentage,
if any, by which the invoice price was discounted below AWP. We then projected
those differences to the universe of pharmacies in each category for each State
and calculated an overall estimate for each State. Additionally, we projected the
results from each State to estimate the nationwide difference between invoice price
and AWP for each category.
We are recommending that HCFA work to ensure that States reimburse the ingredient
portion of Medicaid drugs in a manner more consistent with the findings of this
report. Additionally, we are recommending that HCFA study any of the other factors
(for example, dispensing fees) which they believe could significantly impact pharmacy
reimbursement. We remain available to assist HCFA in implementing these recommendations.
The HCFA Administrator responded to our draft report in a memorandum dated July
7, 1997. The HCFA concurred with the findings and recommendations of this report.
The HCFA hoped that this report would provide the necessary impetus for States
to restructure their payment methodology for outpatient drugs.